December 29, 2000
Evaluation Report No. 00-007


MCI Voice and Video Contract –
Contract Monitoring
Federal Deposit Insurance Corporation                          Congressional Relations and Evaluations
Washington, D.C. 20434                                                     Office of Inspector General




  DATE:                          December 29, 2000

  MEMORANDUM TO:                 Arleas Upton Kea
                                 Director, Division of Administration



  FROM:                          Stephen M. Beard
                                 Assistant Inspector General

  SUBJECT:                       MCI Voice and Video Contract—Contract Monitoring
                                 (EVAL-00-007)

  The Office of Congressional Relations and Evaluations has completed a review of FDIC’s efforts
  to monitor the Corporation’s Voice and Video Long Distance Services Contract (Contract) with
  MCI WorldCom, Inc. (MCI). The objective of our review was to determine whether FDIC
  effectively and efficiently monitored the Contract. This report presents the results of the last in a
  series of reviews that we have performed of this Contract. In total, our efforts have identified
  monetary benefits of almost $4.2 million.

  We saw evidence that oversight managers (OMs) reviewed all invoices and Contract
  modifications and that invoices were processed timely. Further, OMs consistently identified
  invoice errors related to trunk lines and taxes for which FDIC should not have been billed. OMs
  also monitored day-to-day telecommunication operations.

  Nevertheless, contract monitoring could have been improved. In addition, ACSB and DIRM’s
  review of invoices could have been more effective and conducted more efficiently. Several
  factors contributed to the monitoring issues that we identified, including frequent OM changes,
  and oversight coordination and communication problems. ACSB and DIRM have taken actions
  that should improve the efficiency of the invoice review process and have scheduled OM training
  that should address contract oversight coordination and communication. Further, in a draft of
  this report, we recommended: improved market research for contracts vulnerable to price
  changes, transition procedures for oversight manager changes, and contract-specific monitoring
  plans that would better protect the Corporation’s interests.

  We provided DOA with the draft report on November 8, 2000. DOA provided a written
  response on December 18, 2000. Management agreed with each of our recommendations.
  DOA’s written response is included in its entirety as Appendix IV of this report. Appendix V
  presents our assessment of DOA’s response and shows that we have a management decision for
  each recommendation.
EXECUTIVE SUMMARY

This report presents the results of our review of FDIC’s efforts to monitor the MCI WorldCom,
Inc. (MCI) Voice and Video Long Distance Services Contract (Contract). This report is our final
product in a series of evaluations of the Contract. In December 1999, we reported on MCI’s
compliance with a price warranty clause associated with the remaining 2 years of the Contract.
In September 2000, we reported on MCI’s compliance with Contract terms and conditions during
the first 39 months of the Contract. To date, these evaluation efforts have identified monetary
benefits of almost $4.2 million.

We saw evidence that oversight managers (OMs) reviewed all invoices and Contract
modifications and that invoices were processed timely. Further, OMs consistently identified
invoice errors related to trunk lines and taxes for which FDIC should not have been billed. OMs
also monitored day-to-day telecommunication operations. Nevertheless, contract monitoring
could have been improved. Specifically, FDIC could have done more to:

   •   Administer the Contract price warranty,
   •   Assess the impact and appropriateness of the Contract intrastate surcharge, and
   •   Review Contract invoices more effectively and efficiently.

FDIC could have done more to ensure MCI’s compliance with a Contract price warranty before
executing option years to the Contract. The Contract included a price warranty to keep long
distance rates competitive. Prior to the execution of each Contract option year, MCI certified in
writing that its pricing was in compliance with the price warranty. FDIC accepted MCI’s
self-certification without requiring supporting information from MCI or conducting independent
pricing research. In an earlier report, we estimated that FDIC could have saved $326,863 to
$465,750 during the first 2 option years of the Contract had MCI matched pricing available to
most other government agencies under Federal Technology Service (FTS) contracts.

We concluded that FDIC could have done more to assess the impact and appropriateness of a
Contract modification to institute an intrastate surcharge (surcharge). MCI charged FDIC for a
surcharge that was not initially supported by MCI’s government tariff or the Contract. In
addition, after amending the tariff and Contract to include the surcharge, MCI calculated the
surcharge incorrectly. As a result, FDIC paid $1.17 million in surcharges over the first 3 years of
the Contract that were not supported by tariff and risked paying almost $850,000 more in
surcharges during the final 2 years of the Contract.

Finally, we concluded that ACSB and DIRM’s review of invoices could have been more
effective and conducted more efficiently. Several factors contributed to the monitoring issues
that we identified, including frequent OM changes, and oversight coordination and
communication problems. ACSB and DIRM have taken actions that should improve the
efficiency of the invoice review process. ACSB and DIRM have also scheduled OM training
that should address contract oversight coordination and communication.




                                                2
Recommendations

For large, multi-year contracts, especially for procurements involving rapidly changing industries
such as telecommunications, we believe FDIC would benefit by keeping abreast of industry
trends and pricing for the purposes of making option year decisions. Accordingly, we
recommended the Director, Division of Administration:

1. Expand APM Section 4.C. Market Research, to encourage market research as a standard
   contract monitoring responsibility of oversight managers for assessing the continued price
   reasonableness of selected procurements, such as those involving:

   •   Multi-year terms being considered for option renewal,
   •   Price warranties or most favored customer guarantees, and
   •   Highly competitive or rapidly evolving industries.

We believe FDIC’s efforts to monitor technical or complex contracts such as the MCI Contract
could benefit from contract-specific monitoring plans and improved coordination and
communication between contract administrators. Accordingly, we recommended the Director,
Division of Administration:

2. Develop transition procedures to ensure that, when oversight manager changes occur,
   information and documents related to the affected contract are provided to the new oversight
   manager to maintain oversight continuity, and

3. For selected contracts, develop a contract-specific monitoring plan that would:

   •   Identify the primary risks to the Corporation under the contract,
   •   Specify a methodology or approach for reviewing contractor invoices, and
   •   Delineate any contract-specific oversight responsibilities between the CO and OM


Management Response

The Director, Division of Administration (DOA), provided the Corporation’s written response to
a draft of this report on December 18, 2000. DOA agreed with, and provided the requisites of a
management decision for, each of our recommendations.




                                                3
                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY........................................................................................................... 2

OBJECTIVE, SCOPE AND METHODOLOGY....................................................................... 5

BACKGROUND............................................................................................................................ 5

PRICE WARRANTY CLAUSE .................................................................................................. 6

          Price Warranty Was Included in the Contract to Keep Rates Competitive................ 6
          Price Warranty Monitoring Responsibilities Needed Clearer Definition.................... 7
          Opportunities Existed for Managing Contract Pricing Through Option Year
          Negotiations........................................................................................................................ 8

INTRASTATE SURCHARGE .................................................................................................. 10

          History of Surcharge....................................................................................................... 10
          Contract Modification Was Within Contracting Officer’s Delegated Authority .... 10
          FDIC Took Steps to Protect the Corporation’s Interests............................................ 11

INVOICE REVIEW PROCESS ................................................................................................ 12

          FDIC Processed Invoices Consistently and Timely...................................................... 12
          Oversight Manager Changes Impacted Oversight Continuity ................................... 13
          ACSB and DIRM Could Have Reviewed Invoices More Effectively ......................... 13
          ACSB and DIRM Could Have Reviewed Invoices More Efficiently.......................... 16
          Oversight Coordination and Communication Could Be Improved ........................... 18

CORPORATION COMMENTS AND OIG EVALUATION................................................. 19

APPENDIX I: PROCESSING TIME FRAMES FOR REVIEWING INVOICES .............. 20

APPENDIX II: CONTRACT ADMINISTRATION BEST PRACTICES ............................ 22

APPENDIX III: CONTRACT ADMINISTRATION BEST PRACTICES
AT BANKING AGENCIES ....................................................................................................... 24

APPENDIX IV: CORPORATION COMMENTS ................................................................... 31

APPENDIX V: MANAGEMENT RESPONSE TO RECOMMENDATIONS ..................... 33



                                                                      4
OBJECTIVE, SCOPE AND METHODOLOGY


The objective of our review was to determine whether FDIC effectively and efficiently
monitored the Contract. To accomplish our objective, we:

 •   Reviewed the Contract and modifications to understand terms, conditions, and price
     structure.

 •   Interviewed representatives from the Acquisition and Corporate Services Branch (ACSB),
     and the Division of Information Resources Management (DIRM) to understand their
     contract monitoring roles and responsibilities.

 •   Reviewed applicable procurement and program office files pertaining to the Contract.

 •   Mapped the invoice review process.

 •   Analyzed invoices received in 1999 to determine median invoice processing time frames.

 •   Reviewed applicable FDIC guidance pertaining to contract monitoring.

 •   Researched contract administration best practices using the Internet. We specifically
     reviewed publications from the Office of Federal Procurement Policy (OFPP).

 •   Interviewed representatives from the Board of Governors of the Federal Reserve System
     (FRB), the Office of the Comptroller of the Currency (OCC), and the Office of Thrift
     Supervision (OTS) about contract monitoring best practices.

We conducted our fieldwork from March 2000 through June 2000 in accordance with the
President's Council on Integrity and Efficiency's Quality Standards for Inspections. Our
reporting of the results was delayed by other priorities, including completion of a concurrent
review of MCI billings under the Contract and review of a case being presented to FDIC’s Board
of Directors involving technology associated with voice and video long distance services.


BACKGROUND

FDIC awarded the Contract to MCI effective November 1, 1996 for a total amount of
$16.4 million over 5 years. Under the terms of the Contract, MCI provided nationwide voice and
video long distance services including: outbound, inbound (800), trunks, calling cards, video
teleconferencing, fax and dial-up data services. From Contract inception through January 2000,
MCI billed almost $9 million under the Contract.

The Contract included a price warranty clause that required MCI to adjust Contract pricing each
option year to match pricing offered to other MCI customers or otherwise available under
General Services Administration (GSA) contracts. The primary intent of the price warranty was



                                                5
to keep FDIC long distance rates competitive with rates available under GSA’s Federal
Technology Service (FTS). During the first few years of the contract, AT&T and Sprint were
vendors under FTS2000. In December 1998 and January 1999, GSA selected Sprint and MCI
respectively as vendors under FTS2001. In an earlier report, we estimated that FTS rates
decreased by about 30 percent over the first 3 years of the Contract.1

In addition to the Contract price schedule, FDIC’s long distance rates were regulated by MCI
Telecommunications Corporation Tariff FCC No. 7, Government Telecommunications Services
(Tariff No. 7), originally effective February 22, 1991. It appears that Option No. 388 of the
Tariff provided for most of the domestic rates and charges paid by FDIC under the Contract.
Until May 2000, tariffs were the governing document in common carrier relationships with
customers. In short, when discrepancies existed between a tariff, contract, or any other statement
or promise made by a carrier, such as MCI, the tariff prevailed.

With respect to contract administration and monitoring, ACSB was responsible for
administration of the Contract. DIRM’s Telecommunications Section was responsible for
contractor oversight. Both ACSB and DIRM shared responsibility for certain
contract-monitoring functions, such as the invoice review process.


PRICE WARRANTY CLAUSE

FDIC could have done more to ensure MCI’s compliance with a Contract price warranty before
executing option years to the Contract. Prior to the execution of each Contract option year, MCI
certified in writing that its pricing was in compliance with the Contract. MCI did not change its
rates as the result of any of the price warranty certifications for the first 3 option years. FDIC
accepted MCI’s self-certification without requiring supporting information from MCI or
conducting independent pricing research.

MCI’s self-certification was legally sufficient to comply with the price warranty. Thus, FDIC
officials believed they had accomplished the intent of the price warranty. However, FDIC and
MCI established the FTS program as the pricing standard for evaluating the price
competitiveness of the MCI Contract. In our opinion, obtaining an annual price comparison
between the FTS program and the MCI Contract, especially once MCI became an FTS vendor,
would have been a prudent contract-monitoring step.


Price Warranty Was Included in the Contract to Keep Rates Competitive

In October 1996, the Senior Contract Specialist issued a Recommendation for Award
memorandum to the Associate Director, Acquisition Services Branch (ASB). This memorandum
discussed the process that ASB and DIRM followed for awarding the Contract to MCI, including
the price comparison conducted between MCI’s offer and similar services provided by AT&T
under FTS2000. The price comparison found that MCI’s pricing was substantially lower than
1
 MCI Voice and Video Contract-Intrastate Surcharge and Other Compliance Issues (EVAL-00-005), dated
September 29, 2000



                                                      6
FTS2000. However, the memorandum noted that FTS2000 included price control mechanisms
that could erode price differences in the later years of the Contract and recommended that ASB
periodically verify price reasonableness using the Contract price warranty provision, as follows:

       “…ASB recommends the administrative contracting officer compare prices at the end of
       each contract year (before exercising the option) to ensure FDIC continues to receive
       competitive, cost-effective pricing during the life of the contract.”


Price Warranty Monitoring Responsibilities Needed Clearer Definition

We concluded that responsibility for monitoring the price warranty could have been more clearly
defined. There was some confusion between ACSB and DIRM regarding how the price
warranty should have been implemented and monitored. In our opinion, future contracts with
price warranties could benefit from a clear delineation of monitoring roles, responsibilities, and
expectations between the procurement and program offices at contract inception.

Section 7.D.3.b. of FDIC’s Acquisition Policy Manual (APM) charges the OM with determining
the level of oversight necessary to adequately monitor the contract, including developing a
monitoring plan for considering the complexity of various deliverables and overseeing such
things as deadlines, time frames, and inspection and acceptance requirements. We did not find
any relevant criteria in the APM that addressed price warranties or guidance for conducting price
reviews before executing contract options.

Section 7.B.5 of the APM also requires the CO to prepare a Contract Administration Plan (CAP)
for all contracts with total estimated value of $100,000 or greater to ensure the OM and CO have
a common understanding of both the contractor’s and FDIC’s obligations under the contract.
The CAP should address deliverables due, list contract modifications, reconcile invoices paid
against the contract ceiling price, and list option dates and option notice dates that are required to
be provided to the contractor. The CAP also establishes agreement between the CO and OM as
to what constitutes acceptable performance. ACSB and DIRM did not prepare a monitoring plan
or CAP for this Contract.

During interviews, we noted that FDIC contract and program officials held differing views about
whose role it was to monitor the price warranty and how monitoring should have been
accomplished. For example, the Chief, Telecommunications Section told us that he was aware
that long distance rates had decreased and that FDIC was paying too much for long distance.
However, he stated that DIRM did not have a vehicle to verify specific rates with vendors or to
communicate that knowledge to ACSB. The Section Chief pointed out that a few years ago the
program office was not allowed to contact vendors. As discussed later, ACSB began allowing
OMs to contact vendors about 2 years ago and added a section to the APM on market research in
March 2000.

The CO indicated that ACSB had, in fact, monitored the warranty by requiring MCI to certify its
compliance with the price warranty before exercising each option year. However, the Chief,




                                                  7
Headquarters Operations Unit, concluded that the price warranty was ACSB’s responsibility and
concluded that ACSB could have done more to monitor MCI’s compliance with the warranty.

In our view, price warranty monitoring was a shared responsibility. Consistent with the APM’s
“team concept,” ACSB or DIRM’s Contract Management Section (CMS) should have been
responsible for tracking the price warranty event, reviewing pricing, and pursuing any
warranty-related pricing negotiations. The OM and Telecommunications Section should have
been responsible for monitoring industry trends and developments and assessing whether pricing
was reasonable. In a separate report, we estimated that FDIC could have saved $326,863 to
$465,750 over the first 2 contract option years, had MCI honored the terms of the price warranty
and lowered its long distance rates commensurate with rates available under FTS2000.2 In our
opinion, FDIC might have achieved those savings had the Corporation clearly delineated
responsibilities and established a more thorough process for monitoring the Contract price
warranty.

Most DIRM contracts were multiple-year, time and materials (T&M) contracts awarded to
vendors from the GSA Federal Supply Schedule (FSS). At the time of our review, DIRM had
four contracts with price warranty clauses, of which two were the MCI Voice and Video and
MCI Wide Area Network (WAN) contracts. Shortly after our initial review of the Contract price
warranty, ACSB initiated price warranty discussions with MCI under the WAN contract.3 The
CO informed us that during his tenure at FDIC he was unaware of the Corporation ever
enforcing a price warranty. The CO further questioned the benefit of price warranties given the
difficulties that DIRM and ACSB had encountered enforcing the MCI Voice and Data contract
warranties.


Opportunities Existed for Managing Contract Pricing
Through Option Year Negotiations

A broader issue facing FDIC is whether the Corporation should make more of an effort to
negotiate option year pricing under multi-year agreements prior to exercising contract options,
especially within rapidly changing industries such as telecommunications. Long distance pricing
dropped significantly over the term of the Contract. Since the start of the FTS2000 contract in
1988, usage rates dropped from a national average of 27 cents per minute to a fiscal year 2000
estimate of 4.1 cents per minute. GSA reported that per minute prices would drop to less than
1 cent per minute by the end of the FTS2001 contract.

The March 31, 2000 version of the APM included a new section with guidance for performing
market research. The APM encouraged program offices to conduct market research when
planning for future acquisitions and for identifying firms and goods or services available in the
marketplace. The APM allows program offices to make contacts with industry sources and
representatives to keep abreast of current industry developments. The APM did not discuss
market research in the context of making option year decisions.


2
    Ibid.
3
    MCI Voice and Video Contract—Price Warranty, (EVAL-99-009), dated December 20, 1999.



                                                       8
The Federal Acquisition Regulation (FAR) Part 17.207, Exercise of Options, indicates that a CO
should exercise options only after determining that the option is the most advantageous method
of fulfilling the Government’s need, considering price and other factors. The FAR requires the
CO to make his determination to exercise the option on the basis that: “An informal analysis of
prices or an examination of the market indicates that the option price is better than prices
available in the market or that the option is the more advantageous offer.” FDIC was not
required to follow FAR.

Several of the other banking agencies that we visited were not required to follow FAR, but did so
as a matter of course. Representatives from OTS and FRB told us their procurement functions
implemented the spirit of FAR and routinely conducted market-pricing reviews prior to
exercising option years for multi-year contracts. For example, FRB’s Procurement Section used
option year decisions to ensure that contract pricing remained competitive. At each option year,
the Contract Specialist (CS) verified that contract pricing was still competitive within the
industry. FRB used the option year decision to negotiate more competitive pricing with the
vendor. The CS and Contracting Officer’s Technical Representatives (COTRs) read trade
journals, news articles and other periodicals to keep abreast of industry developments. Further,
FRB’s option year price review was a shared responsibility--the CS made the actual calls to
vendors to request pricing quotes and the COTR reviewed the quotes to ensure pricing was valid
and comparable.

For large, multi-year contracts, especially for procurements involving rapidly changing industries
such as telecommunications, we believe FDIC would benefit by keeping abreast of industry
trends and pricing for the purposes of making option year decisions. FDIC would be in a better
position to assess whether existing pricing was reasonable, and possibly seek pricing reductions,
regardless of the whether the contract had a price warranty or other guarantee. Indeed, MCI’s
rationale for agreeing to provide FTS2001 pricing under the Voice Contract was not because
MCI agreed with the price warranty, but because FDIC was a valued customer. One could argue
that FDIC achieved FTS2001 pricing because of competition within the industry, not because of
the Contract price warranty.

Accordingly, we recommended the Director, DOA:

1. Expand APM Section 4.C. Market Research, to encourage market research as a standard
   contract monitoring responsibility of oversight managers for assessing the continued price
   reasonableness of selected procurements, such as those involving:

   •   Multi-year terms being considered for option renewal,
   •   Price warranties or most favored customer guarantees, and
   •   Highly competitive or rapidly evolving industries.




                                                9
INTRASTATE SURCHARGE

MCI inappropriately applied a surcharge on FDIC intrastate calls. FDIC paid $1.17 million in
surcharges over the first 3 years of the Contract that were not supported by tariff and risked
paying almost $850,000 more in surcharges during the final 2 years of the Contract. FDIC took
some steps to protect the Corporation’s interests. However, we concluded that FDIC could have
done more to assess the impact and appropriateness of the surcharge.


History of Surcharge

MCI billed a per-minute surcharge for most of FDIC’s intrastate calls. This surcharge was not
included in the original Contract price schedule. FDIC questioned MCI about the charge and
withheld payment to MCI for about a year. MCI informed FDIC in early 1997 that its tariff
allowed MCI to bill the surcharge. However, it does not appear that MCI modified its tariff to
include the surcharge until late 1997. FDIC signed a payment agreement with MCI in
April 1998 for intrastate surcharges billed, but not paid, during 1997.

In a prior report, we identified inconsistencies between the Contract and Tariff No. 7 regarding
how MCI should have calculated the surcharge and concluded that, of the $1.2 million that MCI
billed for the surcharge, almost $1.17 million was not supported by the tariff.4 At our
suggestion, ACSB asked MCI to discontinue the surcharge, to which MCI agreed effective
February 2000. Overall, we identified and reported questioned costs and funds put to better use
totaling $2 million associated with the intrastate surcharge. MCI agreed to refund past
surcharges and eliminate future surcharges totaling $1.72 million.


Contract Modification Was Within Contracting Officer’s
Delegated Authority

We concluded the CO acted within his delegated authority when he approved the modification to
institute the intrastate surcharge and signed the payment agreement. FDIC required that
contracts for goods or services be executed by a warranted CO appointed by FDIC. ACSB
administered a five-tiered CO Warrant Program based on contract officer training, experience
and position. The CO for the Contract was a Level III officer and had the authority to execute:

•     Contracts including task orders, delivery orders, and purchase orders with total estimated
      value, including options, up to $5,000,000;
•     Administrative changes and modifications where the change or modification resulted in total
      fees for the modified contract or task order not exceeding $5,000,000; and
•     Basic Ordering Agreements with approved expenditure authority not in excess of $5,000,000.




4
    MCI Voice and Video Contract—Intrastate Surcharge and Other Compliance Issues.



                                                        10
The CO explained that for multi-year contracts, such as the MCI Contract, once cumulative
procurement costs, including obligated funds and modifications, exceeded the CO’s contract
execution authority, all subsequent
modifications had to be executed by a           Figure 1: Delegated Authority Levels Under the Contract
higher-tiered CO with the adequate level of            $25
                                                                                                                  Level V:
authority. For example, the Associate                                                                             Unlimited
                                                       $20
Director, ACSB signed the original Contract                                           Delegated Authority of
because it was valued at more than $15                                                Signor
                                                       $15




                                                           Millions
million. The CO was able to sign
modifications during the base year of the
                                                       $10
Contract until the cumulative Contract value                                                                      Level IV
exceeded $5 million. The Chief,                          $5
                                                                                                                  Level III
Headquarters Operations Unit, a Level IV                            Cumulative Contract Amount
CO, then signed modifications until                      $0
cumulative costs exceeded his authority.                Surcharge           Option 1          Option 2       Option 3
                                                       Modification
Figure 1 presents the cumulative Contract
amounts over the first few years of the
Contract, and the corresponding delegated
                                                Source: Interviews and contracting file.
authority amounts of the signors.


FDIC Took Steps to Protect the Corporation’s Interests

We found that ACSB and DIRM did take some steps to protect the Corporation’s interests while
negotiating the surcharge. First, ACSB and DIRM initially rejected MCI surcharge invoices and
refused to pay MCI invoices for about a year while discussing the surcharge. Second, ACSB and
DIRM attempted to negotiate better surcharge terms to reduce the cost impact to FDIC.

The APM states a change to a contract is considered substantive if it alters the rights and
obligations of the parties. An example of a substantive change is a change in the amount of fees
to be paid to the contractor, as was the case with the modification instituting the intrastate
surcharge. The APM outlines steps the OM and CO should take prior to executing a substantive
change to a contract. Table 1 presents those steps:

Table 1: OM and CO Responsibilities for Executing Substantive Contract Modifications
Oversight Manager Responsibilities:                         Contracting Officer Responsibilities:
• Identify the requirement for a modification;              • Determine whether the requested modification is
• Determine whether the modification cost will                 within the scope of the contract;
   exceed approved expenditure authority;                   • With the support of the OM, negotiate changes
• Prepare a detailed, written explanation of the reason        required by the modification;
   for and nature of the change or modification;            • Execute the modification with the contractor;
• Jointly with the CO, participate in any contractor        • Provide executed originals of the modification to the
   negotiation pursuant to the need for the                    contractor and the contract file; and
   modification; and                                        • Provide a copy of the modification to the OM.
• If appropriate, provide a Justification for               • Determine whether the Legal Division should review
   Noncompetitive Procurement.                                 the proposed modification to confirm it is within the
                                                               scope of the contract.
Source: FDIC’s Acquisition Policy Manual




                                                          11
The OM and CO generally complied with most of the responsibilities listed above in executing
the intrastate surcharge modification. However, in carrying out these responsibilities, we believe
ACSB and DIRM could have gained a better understanding of the impact and appropriateness of
the surcharge by:

•   Performing a more in-depth cost analysis,
•   Requesting supporting tariff documentation from MCI, or
•   Requesting that the Legal Division review the tariff.

As noted earlier, the impact of the intrastate surcharge on the MCI contract was fairly significant.
We estimate the intrastate surcharge increased contract expenditures by about 13 percent.
However, we concluded that our observations related to the intrastate surcharge were neither
systemic nor common to other DIRM contracts. Further, FDIC has been successful in recouping
most of the past intrastate surcharge costs and eliminating future surcharges. Accordingly, we
are not making recommendations for the Corporation related to the intrastate surcharge.


INVOICE REVIEW PROCESS

We saw evidence that all Contract invoices received some level of review and were generally
processed timely. Further, ACSB and DIRM consistently identified recurring invoice errors
related to trunk lines and taxes for which FDIC should not have been billed. DIRM also
monitored day-to-day telecommunication operations. However, we concluded that ACSB and
DIRM’s review of invoices could have been more effective and conducted more efficiently.
Several factors contributed to the monitoring issues that we identified, including frequent OM
changes, and oversight coordination and communication problems. ACSB and DIRM took
actions that should improve the efficiency of the invoice review process. Further, ACSB and
DIRM scheduled OM training that should address contract oversight coordination and
communication.


FDIC Processed Invoices Consistently and Timely

MCI submitted monthly invoices to FDIC. ACSB consistently date stamped, filed, and entered
invoice information into the Correspondence Control Management (CCM) and Accounts Payable
and Purchase Order (APPO) systems, and forwarded invoices timely to DIRM for review.
CMS received, logged, and distributed invoices to the appropriate OM, and then monitored the
status of the invoice review process within DIRM. We saw evidence that the OM generally
reviewed all invoices. The OMs consistently identified recurring unsupported charges such as
taxes for which FDIC should not have been billed and charges for trunk lines that had been
disconnected. In most cases, CMS and the OM processed MCI invoices well within
ACSB-established invoice review time frames. Further, the OM monitored invoice amounts
against the Contract ceiling as required by the APM.




                                                12
Oversight Manager Changes Impacted Oversight Continuity

The continuity of oversight was impacted by                    Table 5: Oversight Manager Changes
frequent OM changes. We identified at least seven                               OM           Significant
                                                                  Period
OM changes over the term of the MCI Contract. In                              Changes    Contracting Event
fact, the Contract had four different OMs during a              1996
10-month period concurrent with our evaluations.                  4th Qtr              Contract Award
                                                                1997
We saw indications that new OMs were not always
                                                                  1st Qtr        X     Intrastate Surcharge
receiving the historical Contract information that                2nd Qtr              Intrastate Surcharge
they needed to perform adequate oversight. For                    3rd Qtr              Intrastate Surcharge
example, one OM that we spoke with had not seen a                 4th Qtr              Intrastate Surcharge
copy of the Contract. Another OM was unaware of                                        Price Warranty
Modification No. 24, signed in February 2000, which             1998
imposed FTS2001 pricing and eliminated the                        1st Qtr        X     Intrastate Surcharge
                                                                  2nd Qtr        X
intrastate surcharge. Table 5 presents the timing of              3rd Qtr        X     Price Warranty
OM changes and corresponding significant events                   4th Qtr
under the Contract.                                             1999
                                                                  1st Qtr
Neither the APM nor the Oversight Manager                         2nd Qtr
Training program addressed transition of oversight                3rd Qtr        X     Price Warranty
                                                                  4th Qtr
responsibilities. We concluded that a process for
                                                                2000
transitioning historical oversight information                    1st Qtr        X     Rate Change (Mod 24)
between OMs would have helped to maintain                         2nd Qtr        X
oversight continuity under the Contract. We believe            Source: ACSB and DIRM Contract Files
ACSB could accomplish this through a brief
checklist or by expanding the contents of the CAP.


ACSB and DIRM Could Have Reviewed Invoices More Effectively

The APM included guidance clarifying CO and OM invoice review responsibilities. The APM
consistently stressed the importance of a team approach to contracting. Table 2 presents relevant
APM guidance.

Table 2: APM Invoice Review Responsibilities
 Manual
                   APM Guidance
 Reference
 APM 7.A.1.d.      Contract administration is performed primarily by the Oversight Manager and Contracting
                   Officer, who function as a team.

                   The Contracting Officer is the focal point between FDIC and the contractor regarding contract
                   administration. The Oversight Manager is the focal point between FDIC and the contractor
                   regarding contractor oversight. These responsibilities must be closely coordinated to avoid
                   apparent contradictions and to present a single FDIC position to the contractor.

 APM 7.B.2         Contracting Officer and Oversight Manager should verify costs incurred and billed to FDIC
                   under the contract and monitor expenditures against the contract ceiling.




                                                    13
 Manual
                      APM Guidance
 Reference
 APM 7.G.1            In order to successfully monitor contract performance, the Oversight Manager must fully
                      understand the contractual requirements and perform the following functions:

                      •   Ensure that costs incurred are in accordance with the contract rate schedule and within
                          the contract ceiling price;

                      •   Review invoices to ensure accuracy and verify technical acceptance of goods or services
                          delivered.

 APM 7.I.6.b.         Contractor invoices will be reviewed by ASB and the appropriate Oversight Manager prior to
                      payment.

                      •   The Contracting Officer is primarily responsible for reviewing the invoice to ensure that it is
                          correct, complies with the terms and conditions of the contract and total contractor
                          payments, and payments in process do not exceed the specified contract, purchase order
                          or task order contract limits and program office approved expenditure authority.

                      •   The Oversight Manager will review the contractor invoice to ensure the invoice properly
                          reflects the goods and services received; all goods and services billed have been inspected
                          and accepted; the total payments and payments in process do not exceed the contract
                          ceiling price and the approved expenditure authority; and the invoice does not contain any
                          errors or discrepancies.

 APM Exhibit XX       Invoice Review Checklist for Oversight Managers. The checklist includes the following:

                      •   Are the invoices mathematically correct and do amounts on the attached summary sheets,
                          supporting schedules or receipts agree with the invoiced amounts?

                      •   Have the services been itemized and billed at the units and rates contained in the contract,
                          purchase order or task order fee schedule?

Source: FDIC’s Acquisition Policy Manual

The APM called for a dual review of invoice charges by ACSB and the program office.
However, the original OM had a strong telecommunications background and the technical
knowledge to comprehensively review invoices. Thus, ACSB and DIRM mutually agreed to
forego the CS’ review of invoices and rely solely on the OM’s review. The CS signed invoices,
but did not verify the accuracy of invoice charges.

As discussed above, a number of OM changes occurred over the term of the Contract and the
OM invoice review arrangement was apparently not communicated to succeeding OMs. The
OM in place at the time of our review was unaware of the CS’ limited involvement in the invoice
review process. In June 2000, the CO indicated that ACSB had resumed having the CS review
invoices for accuracy.

DIRM OMs did review invoices, but it appeared the OMs primarily concentrated on trunk lines
and specific feature charges that MCI had historically billed incorrectly. For example, MCI
routinely billed for a trunk line at one of the Pennsylvania Avenue buildings that had been
disconnected early in the Contract. MCI also incorrectly billed for Wide Area
Telecommunications (WATs) service, and occasionally, for Federal and State taxes. The
Corporation consistently identified and disallowed those charges. However, we did not see



                                                        14
evidence that OMs analyzed invoice summary or detail pages, or performed reasonableness tests
of invoice charges for long distance usage charges that constituted the bulk of the billings.

ACSB and DIRM staff consistently referenced the complexity of the Contract and volume of
invoices as challenges in monitoring the Contract. Each month, MCI provided six separate
invoices for telecom services containing thousands of pages of call detail records (CDR). MCI
also provided VNET and 800 CDRs in electronic format. Further, some charges, such as usage
rates for international calls were not addressed in the price schedule and instead were contained
in MCI’s Tariff No. 7.

Nevertheless, most of the Contract rates were based on postalized, per minute or per call rates
that were clearly stated in the price schedule. Each invoice was also supported by a usage
summary that totaled calls, minutes and charges. We estimate that the CS and OM could have
assessed the reasonableness of more than 90 percent of the Contract charges using the usage
summary pages and rates contained in the price schedule. Table 3 presents an example of a
spreadsheet that FDIC could use to assess the reasonableness of contractor billings. The CS or
OM would enter invoice information into columns B and C, price schedule rates into column D,
then use the spreadsheet program to calculate columns E and F.

          Table 3: Example Invoice Review Checklist for VNET Calls
                  (A)             (B)         (C)          (D)          (E)          (F)
                                Invoice                  Contract    Oversight
             Access Type        Charges     Minutes       Rate      Calculation   Difference
           Dedicated Access
              Dedicated       $ 14,770.47   369,454.8 $     0.040 $ 14,778.19 $       (7.72)
              Shared          $ 34,648.50   526,664.7 $     0.065 $ 34,233.21 $      415.29
           Dial-1 Access
              Dedicated       $ 2,622.04     39,387.9 $     0.065 $ 2,560.21 $        61.83
              Shared          $ 15,112.21   148,619.0 $     0.100 $ 14,861.90 $      250.31
          Totals              $ 67,153.22                           $ 66,433.51 $    719.71
          Source: OIG Generated.

Such a spreadsheet could be used to assess the reasonableness of VNET, 800, and Calling Card
calls. FDIC could further assess invoice reasonableness through:

•   Trend analyses—whether overall charges for services are fairly constant over time or
    consistent between regional and field offices.

•   Reconciliation with Trunk Line activity—whether invoice usage information agrees with
    individual trunk line statistics.

Such contract monitoring steps might not be necessary or appropriate for all contracts. ACSB
and the program office should determine the need for such steps based on contract cost,
complexity, and risk to the Corporation. ACSB noted that the APM already required
development of a CAP for all procurements with fees exceeding $100,000 and suggested that the
CAP could be expanded to include monitoring steps specific to a particular contract.




                                                    15
ACSB and DIRM Could Have Reviewed Invoices More Efficiently

ACSB established informal invoice review time frames for complying with Prompt Payment Act
provisions. These time frames were loaded into CCM and used to monitor the status of invoice
processing by the procurement office, program office, and Division of Finance (DOF)
Disbursement Operations Unit. Table 4 presents ACSB’s invoice review time frames.

Table 4: Invoice Review Time Frames
                                                       Calendar Days Per        Total Days Per
 Division        Staff/Office
                                                       Individual               Division
                 Procurement Analyst                                  2
 ACSB                                                                                    8
                 Contract Specialist                                  6

                 Contract Management Section                          3
 DIRM                                                                                   11
                 Oversight Manager                                    8

 DOF             Disbursement Operations Unit                         6                  6

 Total                                                                                  25
Note: Unless otherwise noted, all time frames are expressed in calendar days.
Source: ACSB

We reviewed processing time frames for MCI Contract invoices received during 1999. ACSB’s
informal invoice processing time frames allowed ACSB and the OM 8 days each to review an
invoice. We found that for invoices received during 1999, ACSB spent a median of 2 days and
OMs spent a median of 4 days reviewing invoices. Appendix I, Figures 3 & 4 present the results
of our analysis.

We mapped the invoice process and identified several opportunities for streamlining the process
without impacting the quality of the invoice review. Appendix I, Figure 5 presents a process
map of the MCI invoice review process. The shaded process blocks signify those steps that we
believed could be consolidated, eliminated or conducted concurrently to allow the OM more time
to review the invoice. Individually, none of these steps consumed an inordinate amount of time.
However, all told, these steps reduced the OM’s review time by almost 50 percent.

•   Invoice tracking within DIRM: During the period of our review, all MCI invoices processed
    through DIRM started and ended with CMS. A CMS management analyst logged receipt of
    each invoice into CCM, recorded a date when the invoice should be returned to CMS--8 days
    from the date of invoice receipt by DIRM, distributed the invoice to the appropriate OM, and
    filed a copy of the invoice in a tickler file. The management analyst then reviewed the tickler
    file daily for invoices in process that exceeded the 8-day time frame. Following the OM’s
    review, the invoice was sent back to CMS. The management analyst removed the invoice
    from the tickler file, logged the invoice out of CCM and forwarded the invoice to DOF for
    processing and payment. Our understanding is that CMS will be largely removed from the
    invoice process under FDIC’s new invoice processing system, which is discussed below.




                                                          16
•   Budget verification: The invoice was next forwarded to a Telecommunications Section
    computer specialist (Specialist) before and following the OM’s review. The Specialist
    monitored the contracting budget for each of the Telecommunication Section’s contracts.
    The Specialist entered the invoice amount into a stand-alone spreadsheet program to verify
    that contract expenditures were within the approved contract budget authority. Following
    the OM’s review, the Specialist again received the invoice package and recorded the actual
    invoice amount approved by the OM into the spreadsheet. We believed these two steps could
    be consolidated and/or conducted concurrently outside of the direct invoice review process.

•   Project code reconciliation: The invoice was next forwarded to a management analyst
    (Analyst) within DIRM’s Fiscal Management Section who ensured that contract expenditures
    were properly allocated to DIRM project codes. However, all of the contract expenditures
    under the MCI Contract fell under a single project code. The Analyst indicated that he
    simply initialed the invoice package and forwarded it to CMS. The Analyst indicated that, in
    his opinion, there really was not a need for him to see invoices from the MCI Voice and
    Video or MCI WAN contracts.

Based on our work, DIRM has already eliminated each of the above-mentioned steps from the
MCI Contract invoice process. We believe DIRM’s actions should provide the OM a greater
amount of time to review invoice charges. It should be noted that Figure 5 is specific to the
MCI Voice and Video and MCI WAN Contracts and does not necessarily present the invoice
process for other DIRM contracts. The Chief, DIRM Contracts Unit told us that ACSB and
DIRM were reviewing the efficiency of business processes for other DIRM contracts concurrent
with our review.

Moreover, in September 2000, FDIC began implementation of the Electronic Procurement
Request and Invoicing System (EPRIS), a 2-phased, DOA-led project, to redesign FDIC’s
invoice routing and approval process. EPRIS will implement the routing and approval
functionality of the Accounts Payable and Purchase Order System (APPO) and eliminate the use
of CCM to process invoices. Under phase 1a, information from paper invoices will be manually
entered into EPRIS, then routed and approved electronically. Under phase 1b, scheduled for
implementation by year-end 2001, vendors will submit invoices electronically via the Internet.
The physical flow of information will also change under EPRIS. Invoices will be provided to
the CS and OM concurrently for parallel review. We also understand that CMS will no longer be
involved in the invoice process since EPRIS will presumably route invoice information to the
appropriate OM and automatically monitor processing time frames.

In our opinion, the concurrent review of invoices planned under EPRIS makes sense from a
process efficiency standpoint and should afford the CS and OM a greater amount of time to
ensure that invoices are accurate and reflect the services received.

We researched the Internet and identified best practices for contract administration developed by
the Office of Federal Procurement Policy (OFPP). The results of our research and excerpts from
an OFPP guide are included as Appendix II. We also spoke with three federal banking agencies
to solicit best practices for monitoring information technology contracts and processing invoices.



                                               17
None of the three agencies involved their procurement office in the invoice review process. At
FRB and at OTS, invoices were sent directly to the COTR for invoice review, then forwarded to
the accounting department for payment.5 At OCC, telecommunications invoices were received
by the accounting section and forwarded to Information Technology Services, where the invoice
was reviewed by a section similar to CMS, then returned to the accounting department for
payment. A summary matrix of the results of our discussions with FRB, OCC and OTS is
included as Appendix III.


Oversight Coordination and Communication Could Be Improved

In each of the above observations, oversight coordination and communication between ACSB
and DIRM could have been improved. The OIG has also reported coordination and
communication issues associated with other DIRM contracts. CMS, DIRM’s contract liaison
function, had several controls in place to coordinate procurement activity, including maintaining
contract-specific files to identify contracting events such as option year decisions and holding
weekly status meetings with ACSB to discuss individual contract issues. Nevertheless,
communication regarding this contract was not always as good as it needed to be.

Regardless of the number of controls, processing systems, or status meetings, the ultimate
success of contract monitoring depends largely on how well contract administrators understand
individual procurements and apply that knowledge when making day-to-day contract monitoring
decisions. Specifically, it is critical that CS and OMs understand the:

•     Terms and conditions of the contract,
•     Nature and impact of all modifications and changes to the contract,
•     Delineation of contract administration and monitoring responsibilities,
•     Risks that the contract poses to the Corporation,
•     Specific approach to be used for monitoring performance and assessing billings under the
      contract, and
•     Industry or business that is the subject of the procurement.

DIRM and ACSB have scheduled training sessions with OMs to discuss oversight coordination
and issues arising from recent OIG audits. We understand these sessions will include a
discussion of specific OM and CS responsibilities and contract monitoring expectations.

We believe the efforts that ACSB and DIRM have taken or planned will help to improve the
effectiveness and efficiency of FDIC’s contract administration efforts, particularly in the invoice
review process. However, we believe FDIC’s efforts to monitor technical or complex contracts
such as the MCI Contract could benefit from contract-specific monitoring plans and improved




5
    COTR is the FAR term used to describe the role of the OM; the technical administrator of government contracts.



                                                           18
coordination and communication between contract administrators. Accordingly, we
recommended that the Director, DOA:

2. Develop transition procedures to ensure that, when oversight manager changes occur,
   information and documents related to the affected contract are provided to the new oversight
   manager to maintain oversight continuity, and

3. For selected contracts, develop a contract-specific monitoring plan that would:

   •   Identify the primary risks to the Corporation under the contract,
   •   Specify a methodology or approach for reviewing contractor invoices, and
   •   Delineate any contract-specific oversight responsibilities between the CO and OM

Monitoring plans may not be necessary for all procurements. We suggest that ACSB develop
criteria, such as dollar value of contract, type of contract (e.g., fixed price, T&M), and
complexity of the contract for when contract-specific monitoring plans would be required.
ACSB suggested the CAP could be expanded to include sections for contract-specific monitoring
plans and for maintaining oversight continuity during OM transitions.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DOA provided the Corporation’s written response to a draft of this report on
December 18, 2000. The response is presented as Appendix IV to this report. Appendix V
presents our assessment of DOA’s response and shows that we have a management decision for
each recommendation.




                                               19
APPENDIX I: PROCESSING TIME FRAMES FOR REVIEWING INVOICES

ACSB developed target processing time frames for Contract and program office staff to follow when reviewing and approving
invoices. Figure 3 presents ACSB’s time frames by function.

Figure 3: ACSB Invoice Processing Time Frames
                                                                                                   Jan 00
             Task Name                  Duration
                                                   1   2   3   4   5   6   7   8    9       10 11 12 13 14 15 16 17 18 19 20 21 22 23 24 25

  ACSB Procurement Analyst                 2d

  ACSB Contract Specialist                 6d

  DIRM Contract Management Section         3d

  DIRM Oversight Manager                   8d

  DOF Accounts Payable                     6d



We reviewed MCI Voice and Video Contract invoices received during 1999 and analyzed elapsed time frames for each step of the
invoice review process. ACSB and the OM should have collectively had about 16 days to review an invoice. Based on our review,
we determined ACSB was only using 2 days to review invoices and the OM was only using 4 days, for a total of 6 days. Figure 4
presents the results of our analysis of 1999 invoices.

Figure 4: 1999 Median Invoice Review Time Frames

                                                                                                    Jan 00
              Task Name                 Duration
                                                   1   2   3   4   5   6   7   8        9   10 11 12 13 14 15 16 17 18 19 20 21 22 23 24 25
  ACSB Procurement Analyst & Contract
                                            2d
  Specialist
  DIRM Non-Oversight Manager                1d

  DIRM Oversight Manager                    4d

  DIRM Non-Oversight Manager                3d

  DOF Accounts Payable                      5d




                                                                                   20
Figure 5: MCI Contract: Invoice Review Process


                                                 ACSB Reviews
                                                    Invoice
  ACSB




                                                                                                         ACSB
                                                  Acceptable?




                          CMS logs,
                                                                            Reject Invoice
                      distributes invoice




                      Telecom Section              Oversight
                       Checks Budget            Manager Reviews
                         Availability               Invoice
  DIRM




                                                                                                         DIRM
                                                   Acceptable


                      Telecom Section
                        Records OM
                                                                            Reject Invoice
                      Approved Invoice
                          Amount




                        Fiscal Mgmt
                                                CMS Logs Invoice
                       Section Checks
                                                     Out
                       Project Coding




                                                 Disbursements
                                                 Operations Unit
                                                 Reviews Invoice
  DOF




                                                                                                         DOF




                                                  Acceptable?




                       Issue Check to
                                                                            Reject Invoice
                         Contractor




Note: Shaded boxes represent process steps that we suggested could be eliminated or consolidated. DIRM
eliminated each of these steps from the Contract invoice review process during our review.




                                                       21
APPENDIX II: CONTRACT ADMINISTRATION BEST PRACTICES

Federal procurement administration has attracted more than its share of executive and legislative
interest over the years, from the Vice President’s National Performance Review (NPR) to
Congress’ Federal Acquisition Streamlining Act of 1994. Along those lines, the Office of
Federal Procurement Policy (OFPP) developed several best practices documents, including a
1994 guide addressing contract administration. The OFPP interviewed contracting officials with
major departments and agencies, as well as the private
sector, to develop the guide. OFPP focused on the role of Contract Administration Best Practices
the COTR, identified a number of recurring concerns, and “The principal problem is that contracting
developed best practices to address those concerns.           officials often allocate more time to awarding
                                                              contracts rather than administering existing
Several of these areas parallel observations raised in this   contracts. This often leads to problems in
report, such as communication and coordination, clarity       contractor performance, cost overruns, and delays
of roles and responsibilities, and invoice review             in receiving goods and services. Several other
expectations.                                                 deficiencies have been noted such as unclear roles
                                                                         and responsibilities of the [COTR]…improperly
                                                                         trained officials performing contract oversight,
Table 6 presents excerpts from OFPP’s guide for                          unclear statements of work that hinder contractor
Contract Administration. To its credit, the Corporation                  performance, and inadequate guidance on
has implemented several of these practices, such as                      voucher processing and contract closeout.”
(1) offering OM training courses, (2) employing a “team
approach” to contract administration, and (3) defining                            OFPP Guide to Best Practices for
                                                                                  Contract Administration, October 1994
general OM roles, responsibilities, and limitations of
authority through OM letters of confirmation.

Table 6: Excerpts from OFPP’s Best Practices for Contract Administration Guide
 Concern             Best Practice
 Lack of OM training.      • Establish OM training and certification program:
                              • Continuing education requirements, refresher courses.
                              • Training specific to program effort, especially for complex or technical subjects.
                              • Training level correlated to dollar value and complexity of contracts.
                              • Other courses such as statement of work preparation, project management
                                training, performance-based service contracting

 Undefined OM roles        • Emphasize team concept—prepare joint partnership agreement between CO and OM
 and responsibilities        to define how the parties will work together, including milestones for the various
                             actions to be taken by each party.

                           • CO and OM review contract in detail and concur on a specific oversight approach.

                           • Tailor Letter of Oversight Manager Confirmation to specific procurement by listing
                             specific duties and tasks relevant to the contract. Have the OM’s supervisor sign the
                             letter to indicate an understanding of the OM’s responsibilities.

 Inadequate surveillance   • OM should develop a procurement-specific, cost-effective Contract Administration
 and monitoring of           Plan (CAP) and follow the CAP to monitor contractor performance. CAP should
 contracts                   address/include:
                             • Performance outputs of the statement of work,
                             • A plan or process for quickly and efficiently reviewing invoices.
                             • A quality assurance surveillance plan for evaluating services and products that
                                contractors are required to furnish.



                                                        22
 Concern                  Best Practice

                          • Use customer satisfaction surveys for major contracts for evaluating contractor
                            performance.

 Unclear invoice review   • Review first voucher in detail w/ contractor.
 responsibilities.
                          • Ensure OM understanding that payment of an invoice implies work is progressing as
                            intended and that nature, type, and quantity of effort or materials are in general
                            accord w/ statement of work.

                          • Develop a checklist or some other invoice review form that includes the major cost
                            categories (labor, travel, supplies, other direct costs, subcontract costs) for assessing
                            the reasonableness of the contractor’s claimed costs. Such a checklist would help to
                            ensure consistent and complete invoice reviews.

 Lack of OM incentives    • Consider OM incentive awards based on criteria such as amount of savings achieved,
                            quality, timeliness, minimum technical contract changes, and customer satisfaction.

                          • Incorporate OM duties into employee’s position description and define contract
                            administration as a critical job element in the OM’s performance evaluation,
                            especially for employees overseeing large, complex, cost-reimbursement type
                            contracts.

 Invoices processed       • Establish performance measurements and time frames for processing invoices (i.e.,
 inefficiently.             number of days for review and approval by the contracting officer and OM).

                          • Establish separate post office box for receipt of invoices.

                          • Develop automated invoice tracking systems for processing invoices.

Source: Excerpts from OFPP’s Guide to Best Practices for Contract Administration, October 1994

We are presenting these practices for two reasons. First, for general information purposes, and
second, to demonstrate that the contract administration challenges that FDIC faced under the
MCI Contract are fairly common within the federal government. In addition, Appendix III
contains a matrix of information on contract administration that we gathered from our contacts
with FRB, OCC and OTS. Our goal in this regard is to provide the Corporation balanced, useful
information as it continues to adjust and fine-tune FDIC’s procurement process going forward.




                                                        23
APPENDIX III: CONTRACT ADMINISTRATION BEST PRACTICES AT BANKING AGENCIES
 Information Requested/ Obtained                            FDIC                                          FRB                                           OCC                                           OTS
 Background and Perspective
 1. Agency employees:                       Employees                                                                                 Employees:                                   Employees
          HQ                                 2,327                                                                                    1059 (includes Admin, ITS and Chief          372
          Field                              4,193                                                                                    Counsel staff in the districts)              879
          Total                              6,520                                                                                    1949                                         1251
                                                                                                                                      3008
 2.   Name of Information Technology        Division of Information Resources                                                         Information Technology Services (ITS)        Office of information Systems (OIS)
      (IT) or information resources         Management (DIRM)
      division.

 3.   Most recent information resource or   1999                                                                                      1999                                         2000
      IT contracting statistics:
           •     IT Contracting actions      443                                                                                      215                                          53
           •     IT Contracting dollars     $136.6 mill                                                                               $26.7 mill                                   $6.2 mil
           •     IT actions as percentage    15 percent                                                                               21 percent                                   19 percent
                 of total agency contract
                 actions                     38 percent                                                                               50 percent                                   35 percent
           •     IT dollars as percentage
                 of total agency contract
                 dollars

 4.   Does IT office include                Yes                                        At this time telecom contracts are not part    Yes                                          No. Treasury Department acquires the
      telecommunications contracts?                                                    of FRB’s IT Group. FRB plans on                                                             majority of the required telecom services
                                                                                       shifting responsibility for telecom to IT by                                                for OTS. This allows Treasury to take
                                                                                       the end of 2000.                                                                            advantage of volume discounts and
                                                                                                                                                                                   savings that are passed on to OTS in the
                                                                                       FRB is currently under FTS2001 with                                                         working capital fund.
                                                                                       Sprint for long distance.

 Invoice Processing
 5. Offices/Individuals involved in         (Old Process)                              •    Vendor submits invoice to                 •      Vendor submits invoice to             •      Vendor submits invoice to the
      invoice process                       •    Vendor submits invoice to ACSB.            Contracting Officer Technical                    Accounting & Reports (A&R) in                COTR.
                                                 Invoice logged into correspondence         Representative (COTR)                            Financial Management Division.        •      COTR certifies the invoice and
                                                 control system and purchase order     •    COTR reviews invoice, forwards            •      A&R logs the invoice and submits             sends to Accounting to pay.
                                                 system.                                    approved invoice to Accounting.                  invoice to ITS budget desk            •      COTR notifies contracts of any
                                            •    Contract Specialist (CS) reviews      •    Accounts Payable (A/P) pays               •      Budget desk logs invoice into                invoice problems.
                                                 invoice for accuracy/agreement with        vendor.                                          Budget Utilization Database (BUD)     •      CO and/or COTR return rejected
                                                 contract/price schedule.                                                                    system and submits invoice to                invoices to the contractor(s) until
                                            •    Invoice routed to DIRM Contract                                                             Contracts Management (CM) for                work is satisfactory and/or
                                                 Management Section (CMS), a                                                                 validation (within program office).          discrepancies are resolved.
                                                 contract liaison office. CMS                                                         •      CM verifies accuracy of time, cost,   •      All invoices are paid within 30 days
                                                 Distributes invoice to Telecom                                                              budget, and project code. CM enters          or rejected and returned to the
                                                 Section who checks budget.                                                                  all information into CM databases            contractor.
                                            •    Telecom Section forwards invoice to                                                         and creates a voucher for payment
                                                 Oversight Manager (OM) who                                                           •      CM returns invoice and voucher to
                                                 reviews invoice to ensure                                                                   budget desk
                                                 goods/services were received,                                                        •      Budget desk updates BUD with
                                                 verifies accuracy of charges, and                                                           voucher data to update ITS budget
                                                 authorizes amount of invoice to be                                                          information. Budget desk then
                                                 paid.                                                                                       forwards invoice and voucher to

                                                                                                         24
Information Requested/ Obtained                               FDIC                                          FRB                                         OCC                                           OTS
                                            •    Invoice goes back to budget official                                                      A&R for payment
                                                 who records authorized invoice
                                                 amount in separate budget system.
                                            •    Invoice goes to another DIRM
                                                 official to verify that contract
                                                 charges are appropriately allocated
                                                 to DIRM project codes.
                                            •    Invoice goes back to CMS who logs
                                                 invoice out of tracking system.
                                            •    Invoice routed to DOF
                                                 Disbursement Operations Unit for
                                                 payment.

6.   Systems Involved                       Accounts Payable and Purchase Order           Oracle-based system with separate           •    BUD system - Excel database             Procurement uses OTS accounting system
                                            System                                        modules for procurement, invoicing, and     •    Personal CM system - Excel              to award GSA orders, and purchase orders
                                            Correspondence Control Management             A/P. System was designed for Ford                database                                < $100K and some commercial item
                                            System                                        Motor Company so it is not ideal for FRB.   •    Accounts Payable system                 acquisitions < $5mil. IPRO is currently
                                            DIRM stand-alone PC-based budgeting           However, it does allow for procurement                                                   used for non-commercial items and
                                            spreadsheet                                   functions to be managed electronically                                                   contracts > $100K.
                                                                                          within a single system.

7.   Allowed time frames for invoice        Contract Specialist – 6 days                  No specific invoice processing time         No response.                                 PPA serves as the standard for timely
     processing.                            Oversight Manager – 8 days                    frames. Prompt Payment Act (PPA)                                                         processing of invoices. Given the size of
                                            Accounts Payable – 6 days                     drives invoice processing time frames.                                                   OTS and relationship between the COTR,
                                                                                          Representative did not believe that FRB                                                  contracting officer and accounting, OTS
                                                                                          had any problems meeting PPA                                                             manages the invoicing process in a
                                                                                          requirements.                                                                            manner that ensures contractors receive
                                                                                                                                                                                   payment within 30 days.

8.   Any electronic invoice processing      EPRIS --will be module of A/P system.         Oracle-based system allows procurement      No response.                                 OTS pays invoices via on-line payment
     systems in use?                        •   Phase 1a will allow for electronic        functions to be managed electronically                                                   and collection system (OPAC).
                                                routing of invoice approval forms.        within a single system. Vendors still                                                    Contractors are required to complete and
                                            •   Phase 1b will support electronic          provide paper copies of supporting                                                       submit an automatic clearinghouse (ACH)
                                                submission of invoices and                documentation, such as time sheets, and                                                  form to facilitate electronic payment via
                                                supporting documentation from             those documents are routed to the COTR                                                   OPAC.
                                                vendor.                                   manually for review.

9.   Does agency have any flow-charts,      FDIC provided GAO/Division of Finance         No. FRB’s invoice review process is         No response.                                 N/A – invoicing process is abbreviated.
     process maps or narratives detailing   cycle process memo for the A/P process.       abbreviated.
     the invoicing process.                 Cycle memo includes the invoice process.

10. Any contract liaison function within    Yes. CMS serves as liaison between            No. None needed.                            Yes. Contract Management liaison (one        Yes. OIS has a dedicated individual who
    the IRM program office?                 ACSB and DIRM for virtually all contract                                                  staff person) within ITS. Performs the       serves as the liaison between OIS and
                                            and requisition related activity. Functions                                               following functions:                         procurement management for all
                                            include:                                                                                  •     Coordinates Acquisition/Change of      requisitions and contracting related
                                            •    Processing procurement actions,                                                            Contracting Services                   matters. In addition, as required, COTRs
                                            •    Receiving, logging, and distributing                                                       •     Prepare contract proposal        are appointed for individual contracts.
                                                 invoice to OM.                                                                             •     Prepare requisitions for         The COTRs routinely monitor contractor
                                            •    Monitoring invoice time frames to                                                                approval                         performance and communicate with the
                                                 ensure invoices are processed                                                              •     Post and track job requests      liaison and contractor officer(s) regarding
                                                 timely.                                                                                    •     Prepare contract modifications   contractor performance.
                                            •    Reviewing all contract modification                                                  •     Perform Contractor Oversight
                                                 requests,                                                                                  •     Coordinate funds expenditure
                                                                                                           25
Information Requested/ Obtained                   FDIC                      FRB                   OCC                          OTS
                                  •   Tracking all purchase requisitions,                   activities
                                  •   Collecting/monitoring “burn rate”           •   Reconcile bills
                                      information from OMs.                       •   Create year end accruals
                                  •   Maintaining status report and                   •     Monitor and measure contract
                                      monitoring all DIRM contract                          fulfillment
                                      actions, requests, etc…                     •   Create and monitor individual work
                                                                                      orders
                                                                                  •   Validate performance and time
                                                                                  •   Monitor progress of projects and
                                                                                      contract personnel
                                                                                  •   Monitor contracts for compliance
                                                                                  •   Maintain dialog with contractor
                                                                                      •     Provide COTR and contractor
                                                                                            non-technical direction &
                                                                                            guidance
                                                                                  •   Interpret and provide advice on all
                                                                                      procurement legal and regulatory
                                                                                      issues and requirements related to
                                                                                      vendor contracting
                                                                                  •   Provide guidance on OCC
                                                                                      procedures
                                                                                      •     Pay vendor
                                                                                            •      Create invoices
                                                                                            •      Verify and reconcile
                                                                                                   invoice data
                                                                                            •      Approve vendor
                                                                                                   payments
                                                                                            •      Submit to Finance for
                                                                                                   payment
                                                                                  •   Ensure Compliance (with
                                                                                      requirements and contract terms)
                                                                                      •     Maintain up-to-date hands on
                                                                                            knowledge of the Federal
                                                                                            Acquisition Regulation (FAR)
                                                                                            and related statutes
                                                                                      •     Develop and implement ITS
                                                                                            contract policies, standards and
                                                                                            procedures
                                                                                      •     Oversee ITS and contract
                                                                                            personnel compliance
                                                                                  •   Report on Contracts
                                                                                      •     Create reports (e.g. monthly
                                                                                            report to ITS managers)
                                                                                            •      Contract mandated
                                                                                            •      Administrative
                                                                                            •      Treasury
                                                                                            •      CIO contractor trend
                                                                                                   analysis
                                                                                      •     Forecast cost
                                                                                            •      Assess skill levels and
                                                                                                   cost
                                                                                            •      Project monthly cost or

                                                                            26
Information Requested/ Obtained                           FDIC                                        FRB                                          OCC                                           OTS
                                                                                                                                                  duration
                                                                                                                                 •     Maintain Documentation
                                                                                                                                       •    Outsourcing documentation
                                                                                                                                       •    Vendor documentation
                                                                                                                                       •    Vendor contract
                                                                                                                                            documentation
                                                                                                                                       •    Contract personnel data (e.g.
                                                                                                                                            email list, timesheets, call
                                                                                                                                            order, etc.)
                                                                                                                                       •    Contract databases
                                                                                                                                            •     Treasury data
                                                                                                                                            •     Financial data
                                                                                                                                            •     Budget data
                                                                                                                                 •     Serve as Liaison
                                                                                                                                       •    Between ITS/Vendor
                                                                                                                                            •     Review contract
                                                                                                                                                  performance
                                                                                                                                            •     Policies and procedures
                                                                                                                                            •     Replacement
                                                                                                                                                  discussions/exit
                                                                                                                                                  interviews
                                                                                                                                       •    Between ITS/Customer
                                                                                                                                            •     Perform contract rep
                                                                                                                                                  duties
                                                                                                                                                  •      Act as project
                                                                                                                                                         manager
                                                                                                                                                  •      Acquire contracting
                                                                                                                                                         services
                                                                                                                                       •    Between ITS/Acquisitions
                                                                                                                                            (e.g. weekly meetings,
                                                                                                                                            planning, operational)
                                                                                                                                       •    Between OCC/Treasury
                                                                                                                                 •     Perform Security Activities
                                                                                                                                       •    Initiate background checks
                                                                                                                                       •    Perform emergency
                                                                                                                                            termination activities
                                                                                                                                       •    Perform pre-exit interview
Price Warranties/Price Reasonableness
11. Do contracts include price           Some FDIC contracts do include price       No. FRB manages pricing changes              No.                                           When appropriate, OTS uses FAR Clause
     warranties or favored customer      warranties, although the number of non-    through the option year decision. CS and                                                   52.215-22 "Price Reduction for Defective
     clauses? If so how are warranties   GSA schedule/contracts with price          COTRs check marketplace pricing at each                                                    Cost or Pricing Data" to ensure that the
     monitored? Has agency enforced      warranties are decreasing. FDIC does not   option year to ensure that pricing remains                                                 contract price is fair and reasonable. Most
     any price warranties?               routinely monitor price warranties.        competitive.                                                                               OTS contracts are awarded based on
                                                                                                                                                                               adequate competition so contracting
                                                                                    FRB also includes contract language                                                        officers negotiate fair and reasonable
                                                                                    requiring vendors to provide the latest                                                    prices prior to award. This clause is
                                                                                    equivalent equipment at the same price                                                     particularly useful in sole source actions.
                                                                                    quoted in the price warranty, to guard                                                     The clause helps contracting officers to
                                                                                    against equipment obsolescence.                                                            ensure that prices remain fair and
                                                                                                                                                                               reasonable throughout contract
                                                                                                                                                                               performance and provides a mechanism to
                                                                                                                                                                               recover over-payments. For contracts

                                                                                                     27
Information Requested/ Obtained                                 FDIC                                           FRB                                          OCC                                           OTS
                                                                                                                                                                                       negotiated with option years and/or
                                                                                                                                                                                       quantities, contracting officers test the
                                                                                                                                                                                       market to ensure that exercise of the
                                                                                                                                                                                       option is still the most advantageous
                                                                                                                                                                                       means of satisfying the requirement in
                                                                                                                                                                                       accordance with the Federal Acquisition
                                                                                                                                                                                       Regulation (FAR) Part 17.207. Generally,
                                                                                                                                                                                       this is accomplished through effective
                                                                                                                                                                                       market research. As a best practice, OTS
                                                                                                                                                                                       uses Internet Based Market Research.

12. Which office’s role is it to monitor       It is primarily ACSB’s responsibility to     Shared responsibility. CS makes calls to      N/A                                          Primary responsibility to monitor contract
    price warranties—the procurement           monitor the price warranty, with technical   the marketplace to determine pricing.                                                      pricing belongs to the contracting officer.
    section, the program office, or both?      input about industry trends, etc… from the   COTR reviews pricing to make sure it’s                                                     However, since the COTR has the
                                               program office.                              valid and comparable.                                                                      technical expertise and monitors
                                                                                                                                                                                       contractor performance, the COTR keeps
                                                                                                                                                                                       the contracting officer apprised of issues
                                                                                                                                                                                       that could potentially impact pricing.

13. For industry specific contracts such       For telecommunications contract, FDIC’s      For complex or technical contracts, FRB       •     Attend various conferences,            OTS “tests the market” by attending trade
    as telecommunications, what does           efforts to keep abreast with industry        assigns COTRs with industry experience.             seminars, classes sponsored by         shows, reading trade journals and papers,
    agency do to keep abreast of               pricing trends were limited.                 As mentioned above, the CSs check                   government and private industry        conducting Internet-based market
    industry developments such as                                                           pricing at each option year. This is also a   •     Subscribe to various trade journals    research, and participating in vendor
    technology, pricing, industry                                                           FAR requirement. FRB is not required to       •     Communicate with peers in other        outreach programs.
    standards, etc…                                                                         to follow FAR but implements the spirit             government agencies and private
                                                                                            of selected FAR tenets.                             sector

14. For multi-year contracts, does             The March 2000 version of the APM            Yes. CSs review trade journals and            Yes, options are exercised consistent with   Yes, OTS follows spirit of FAR and tests
    agency perform any work/research           encouraged market research when              periodicals and perform marketplace price     the FAR.                                     the market before exercising each option
    to ensure that contract pricing is still   planning for future acquisitions, but did    checks before exercising option years to                                                   to ascertain that market conditions have
    reasonable prior to exercising each        not address doing so when making option      ensure that vendor pricing is competitive.                                                 not changed to the extent that would make
    contract option year? If so, what          year decisions. An APM revision planned                                                                                                 option exercise inappropriate.
    methods has agency used to re-             for March 2001 will require market
    confirm reasonableness of pricing?         research for contracts deemed vulnerable
                                               to price changes before options are
                                               exercised.
Roles, Training, Monitoring Plan
15. What are Contract Specialist and           CS responsible for ensuring invoices are     CS is not involved in invoice processing.     ITS CM liaison is responsible for ensuring   COTR monitors contractor performance,
     Oversight Manager/COTR roles              correct and prices charged agree/comply      COTR is responsible for reviewing             that invoice reflects the goods and          assesses the quality of deliverables
     with respect to reviewing invoices?       with terms and conditions of contract, and   invoices and ensuring goods and services      services that OCC actually received,         (goods/services) and is responsible for
                                               that total payments don’t exceed contract    were received. CS assists in marketplace      inspecting goods and services, ensuring      reviewing and certifying invoices for
                                               limits.                                      price research during option year             that payments do not exceed contract         payment. In addition, COTR informs the
                                                                                            decisions.                                    ceiling price and that invoice contains no   contracting officer of problems requiring
                                               OM responsible for ensuring that invoice                                                   errors or discrepancies.                     corrective actions.
                                               reflects the goods and services that FDIC
                                               actually received, inspecting goods and                                                                                                 Last year, COTRs received on-site COTR
                                               services, ensuring that payments do not                                                                                                 training provided by the Treasury
                                               exceed contract ceiling price, and that                                                                                                 Acquisition Institute. This CD-ROM
                                               invoice contains no errors or                                                                                                           COTR training is provided on an
                                               discrepancies.                                                                                                                          as-needed basis.

16. Does agency have policies and/or           Policies contained in FDIC’s Acquisition     Representative provided FRB’s                 Yes, but not provided.                       Yes, the contracting administration plan
    form letters delineating CS and            Policy Manual. OM provided a form            Procurement Manual for Technical                                                           outlines duties/responsibilities of parties

                                                                                                              28
Information Requested/ Obtained                                FDIC                                      FRB                                          OCC                                           OTS
     OM/COTR roles and                      letter outlining authority and role.       Personnel, dated January 1999, which                                                      involved in the contracting process and
     responsibilities? Could we obtain a                                               delineates roles and responsibilities                                                     serves as policy/guidance.
     copy of those responsibilities?                                                   between CS and COTR.

                                                                                       The manual also includes a standard FRB
                                                                                       form: Contracting Officer’s Technical
                                                                                       Representative Acknowledgement of
                                                                                       Duties and Responsibilities form.

17. Does agency develop a contract          APM requires a CAP for procurements >      No response.                                 Not at this time; however, the OCC is        Procurement management generally
    administration plan specific to         $100,000. However, CAP does not                                                         developing performance-based                 develops the contract administration plan.
    complex procurements to address         delineate roles and responsibilities,                                                   contracting and a contract monitoring plan   The plan outlines the duties and
    how contractor performance should       monitoring approach, or invoice review                                                  will be part of individual contracts.        responsibilities of all parties involved in
    be monitored, approaches to             methodology specific to a particular                                                                                                 the contracting process and is an
    reviewing contractor invoices (e.g.,    contract.                                                                                                                            attachment to the contract.
    such as an invoice review
    checklist)?

18. Any requirements for CS or OM to        •    Yes. ACSB has contract warrant        FRB sends its CSs and COTRs to the           Yes; all COTRs are trained in order to be    No. The COTR training is sufficient.
    receive general contract                     officer training requirements.        Internal Revenue Service Training Center     recertified every 3 years.
    administration and/or monitoring        •    Oms are required to complete FDIC     in Oxen Hill, MD. Courses include
    training?                                    OM Training Course and FDIC           Writing Performance-Based SOWs,
                                                 Contract Administration Training      Contract Administration, and COTR
                                                 course and a 1-day refresher course   Training.
                                                 every 3 years.

19. Do CS or OM receive any industry-       The OM assigned for the bulk of the        For complex and/or technical contracts       No industry-specific training; COTRs         Generally, OTS contracts do not require
    specific or procurement-specific        Contract had experience in the             FRB assigns COTRs with experience in         familiar with the subject of the contract    COTR industry-specific training.
    training prior to assuming              telecommunications area.                   that particular industry.                    effort.                                      However, technical program office
    responsibility for administering                                                                                                                                             personnel may need industry training for
    highly technical contracting                                                                                                                                                 complex programs such as the OTS Net
    assignments, such as                                                                                                                                                         Portfolio Value (NPV) initiative.
    telecommunications or IT contracts?

Best Practices
20. Best practices, any actions taken by    FDIC has implemented some best             •    Detailing expectations, deliverables,   •    Creating the BUD system.                •    OTS is processing and awarding the
     agency that improved the efficiency    practices such as:                              requirements, all allowable                  Originally the ITS budget desk               majority of contracts <$5mil in
     and/or effectiveness of the contract   •     CO/OM training,                           costs/expenses/charges, and                  asked that the BUD system be                 accordance with commercial item
     monitoring process?                    •     EPRIS                                     penalties for non-performance in the         created so that invoices could be            acquisition procedures. This has
                                                                                            SOW.                                         matched with requisitions and that           reduced administrative cost,
                                                                                       •    Automated/electronic invoicing               vouchers can be tracked to budget            obtained better pricing, reduced the
                                                                                            system.                                      and project codes. Now, until the            number of sole source procurements,
                                                                                                                                         OCC gets a new financial                     and reduced procurement
                                                                                                                                         management system, this will be the          administrative lead-time by as much
                                                                                                                                         vehicle used by the agency to track          as 80% on some requirements.
                                                                                                                                         contractor and project costs.           •    OTS is moving toward performance-
                                                                                                                                    •    Creating the CM liaison position in          based service contracting.
                                                                                                                                         ITS. ITS has approximately 30           •    OTS researches contractors’ past
                                                                                                                                         COTRs. Now, with the CM position             performance records through NIH
                                                                                                                                         in an advanced stage of                      and DOD contractor performance
                                                                                                                                         development, ITS has one major               databases.
                                                                                                                                         liaison between ITS and
                                                                                                                                         Acquisitions (AQS). Many

                                                                                                        29
Information Requested/ Obtained             FDIC                  FRB                    OCC                                            OTS
                                                                             repetitive activities are now
                                                                             centralized; requests are
                                                                             coordinated, prioritized, and tracked.
                                                                             Contract budgeting information is
                                                                             more easily planned, forecasts are
                                                                             more accurate, and less effort is
                                                                             needed in handling all of the
                                                                             contract workflow.

21. Has your agency utilized or accessed           No response.         No response.                                  Yes. Procurement issues orders against
    any of the best practices suggestions                                                                             various Government Wide Agency
    developed by the Office of Federal                                                                                Contracts (GWACS). We also implement
    Procurement Policy (OFPP) or                                                                                      streamlined procedures (combined
    GSA’s Office of Governmentwide                                                                                    synopsis/solicitations, oral presentations,
    Policy?                                                                                                           past performance as evaluation criteria in
                                                                                                                      best value procurements, and we are
                                                                                                                      reviewing our service requirements to
                                                                                                                      determine how many can be awarded as
                                                                                                                      performance based service contracts.




                                                                  30
APPENDIX IV: CORPORATION COMMENTS




                              31
32
APPENDIX V: MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of management
decisions. The information for management decisions is based on DOA management's written response to our draft report.

                                                                                     Expected or   Documentation              Management
 Rec.                                                                                  Actual         that will    Monetary    Decision:
 Number     Corrective Action: Taken or Planned / Status                             Completion    Confirm Final   Benefits    Yes or No
                                                                                        Date           Action

     1      ACSB will amend the Acquisition Policy Manual (APM) to                     3/31/01     Amendments to      $0         Yes
            include a requirement that before a contract option is exercised,                      APM
            the Contracting Officer (CO) and Oversight Manager (OM) will
            be jointly responsible for surveying market conditions for all
            contracts determined to be vulnerable to price changes.

            ACSB will also expand the APM Exhibit XXVII, Contract
            Administration Plan (CAP) to include a requirement to consider
            price reasonableness before exercising option years.



    2       ACSB will amend the APM, Exhibit XVI, Letter of Oversight                  3/31/01     Amendment to       $0         Yes
            Manager, to include the responsibility of organizing and                               APM
            maintaining an OM file, as well as instructions for transfer of
            that file to successor OMs.

            ACSB will also amend Section I of the CAP to include original
            and successor OM appointments and designate that OM files
            must be transferred to newly appointed OM(s).




                                                                                33
                                                                              Expected or   Documentation                Management
Rec.                                                                            Actual         that will      Monetary    Decision:
Number   Corrective Action: Taken or Planned / Status                         Completion    Confirm Final     Benefits    Yes or No
                                                                                 Date           Action

  3      ACSB will revise CAP to address specific points cited in this          1/31/01     Revised CAP and      $0         Yes
         recommendation.                                                                    guidance for
                                                                                            conducting the
         DOA has also expanded the Post Award Conference to include:                        Post Award
         more contract-specific information to ensure a better mutual                       Conference
         understanding of contract terms and conditions, roles and
         responsibilities of key Contractor and FDIC personnel, and a
         clarification of issues that might be misunderstood.




                                                                         34
